(202) 223-7325
(202) 204-7397
kshanmugam@paulweiss.com

June 18, 2021

BY ELECTRONIC FILING
Mr. Scott S. Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

C.H. Robinson Worldwide, Inc. v. Allen Miller, No. 20-1425

Dear Mr. Harris:
Pursuant to the Court’s order of March 19, 2020, modifying the Court’s rules
and practices in light of COVID-19, petitioner respectfully requests that distribution
of its certiorari materials be delayed from June 30, 2021, to July 7, 2021.
Petitioner respectfully submits that additional time to file a reply is needed
due to COVID-19. Petitioner’s counsel have been displaced from their offices, and
they are currently in different locations, making coordination difficult.

2
Respondent’s counsel has indicated that respondent does not object to this
proposed extension.
Yours sincerely,
Kannon K. Shanmugam
cc:

Rena Mara Leizerman, Esq.

